No.20- )#7

SUPREME COURT OF THE UNITED STATES
Okwudili Chukwuani
Petitioner,
vs.
Solon School District,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Sixth
Circuit

FILED
AUG 0 9 2920
OFFICE OF THE CLERK
SUPREME COURT. U.S.

PETITION FOR A WRIT OF CERTIORARI

Okwudili Francis Chukwuani, MD
Pro Se /Parent/Petitioner
7309 Winchester Drive, Solon, Ohio 4439 Tel.:
(713) 574-0043 Fax: (713) 357-9405 E-Mail:
okwv60@vahoo.com
Solon School District, Solon, Ohio
Respondent, Represented by Attorneys:
1. Ms. Sara Ravas Cooper, Esq.
scooDer@walterhav.com
2. Ms. Maria Pearlmutter, Esq.
mpealmutter@walterhav.com
3. Ms. Kathryn I. Perrico, Esq.
kperrico@walterhav. com
1301 E. Ninth Street,
Suit 3500, Cleveland, OH 44114
Phone: 216-619-7833

1

I.

Questions Presented

1. Can an unconstitutional denial of parental rights by a State Court, due to a
complaint about IDEA “stay put” violation, be used to deny jurisdiction for an
administrative appeal at a Federal Court?
2. Whether the Supreme Court’s decision in Winkelman v. Parma City School District,
was violated by the 6* Circuit Court of Appeal’s denial of jurisdiction for an
administrative appeal by a pro se parent?
3. Can a parent who satisfied the IDEA definition of a parent in 34 CFR 300.30(b) at the
time he filed an IDEA due process request, be denied jurisdiction to appeal the same
due process in a Federal Court, without voiding the entire due process?

2

II.

Table of Contents

I.

Questions Presented

2

II.

Table of Contents

3

III.

Table of Authorities

4

IV.

Petition for Writ of Certiorari

5

V.

Opinions and Orders

5

VI.

Jurisdiction

5

VII. Constitutional Provisions Involved

6

VIII. Statement of the Case

7

IX.

Reasons for granting the Writ

15

X.

Conclusion

20

XI.

Appendix

(76 pages)

3

III. Table of Authorities
Cases

Santosky v. Kramer, 102 S Ct 1388; 455 US 745, (1982)...........

17A9

Doe v. Irwin, 441 F Supp 1247; U.S. D.C. of Michigan, (1985)

18

Stanley v. Illinois, 405 US 645,651; 92 S Ct 1208, (i972)

18

Kelson v. Springfield, 767 F 2d 651; US Ct App 9th Cir, (1985).

18

Brown v. Board of Education, 347 U.S. 483 (1954)

15

Honig v. Doe, 484 U.S. 305 (1988)

8,15

Jacob Winkelman v. Parma City School District, 550 U.S. 516 (2007)

16

Oberti v. Board of Education, 995 F.2d 1204 (3rd Cir. 1993)

16

Statutes

28 U.S.C. § 1254

5

34 U.S.C. § 300.8 (c) (4)

8

Constitutional Provisions
United States Constitution, Amendment I, V, IX, and XIV

6

Corporate Disclosure

The petitioner, Dr. Okwudili Francis Chukwuani, has no affiliation or financial ties with any non­
governmental corporate entity.

4

III.

Petition for Writ of Certiorari

UC’s Father, Okwudili Chukwuani, pursuant to 28 U.S.C. § 1254, respectfully petitions this
Court, for a writ of certiorari to review the judgement of the 6th Circuit Court of Appeal,
regarding the administrative review of the “stay put” and procedural violations in the IDEA
identification of his son (UC), for Emotional Disturbance.

V.

Opinions and Orders

The decision by the US 6th Circuit Court of Appeals to deny the administrative appeal in Case
No. 19-3574, Okwudili Chukwuani v. Solon City School District was filed on April 21, 20201,
at the wake of the Coronavirus Pandemic. The case originated from the Federal District Court
of North East Ohio, Originating Case No. l:19-cv-004922. The orders of the US 6th Circuit
Court of Appeals and the Federal District Court of North East Ohio, are attached in the
Appendix.
VI. Jurisdiction
Dr. Chukwuani’s administrative appeal at the US 6th Circuit Court of Appeals was denied on
April 21, 2020, at the wake of the Coronavirus Pandemic. Dr. Chukwuani therefore invokes
this Court’s jurisdiction based on an order made by this Court on THURSDAY, MARCH 19, 2020,
"In light of the ongoing public health concerns relating to C0VID-19, the following shall apply to cases prior
to a ruling on a petition for a writ of certiorari: IT IS ORDERED that the deadline to fie any petition for a
writ of certiorari due on or after the date of this order is extended to 150 days from the date of the lower
court judgment, order denying discretionary review, or order denying a timely petition for rehearing. See
Rules 13.1 and 13.3."

1 Exhibit A1-5 - Order by the US 6th Circuit Court of Appeal, 04/21/2020
2 Exhibit B1-6 - Opinions and Order by the US District Court of North East Ohio, May 2019.

5

in demonstrating that he has timely filed this petition for a writ of certiorari within one
hundred and fifty days of the US 6th Circuit Court of Appeal’s judgement, of April 21, 2020.

VII. Constitutional Provisions Involved
United States Constitution-Amendments first, 5th, 9th and 14th:

The fundamental liberty interest of natural parents in the care, custody, and management of their
child is protected by the Fourteenth Amendment, and does not evaporate simply because they h ave
not been model parents or have lost temporary custody of their child to the State. A parental rights
termination proceeding interferes with that fundamental liberty interest. When the State moves to
destroy weakened familial bonds, it must provide the parents with fundamentally fair procedures.
Santosky v. Kramer, 102 S Ct 1388; 455 US 745, (1982)

The rights of parents to the care, custody and nurture of their children is of such character that it
cannot be denied without violating those fundamental principles of liberty and justice which lie at the
base of all our civil and political institutions, and such right is a fundamental right protected by this
amendment (First) and Amendments 5, 9, and 14. Doe v. Irwin, 441 F Supp 1247; U.S. D.C. of
Michigan, (1985).
The Court stressed, “the parent-child relationship is an important interest that undeniably warrants
deference and, absent a powerful countervailing interest, protection.” A parent’s interest in the
companionship, care, custody and management of his or her children rises to a constitutionally
secured right, given the centrality of family life as the focus for personal meaning and responsibility.
Under the Due Process Clause of the Fourteenth Amendment petitioner was entitled to a hearing on
his fitness as a parent before his children were taken from him. Stanley v. Illinois, 405 US 645 65 T
92 S Ct 1208, (1972)

The U.S. Court of Appeals for the 9th Circuit (California) held that the parent-child relationship is a
constitutionally protected liberty interest. (See; Declaration of Independence -life, liberty and the
pursuit of happiness and the 14th Amendment of the United States Constitution — No state can
deprive any person of life, liberty or property without due process of law nor deny any person the
equal protection of the laws. Kelson v. Springfield, 767 F 2d 651; US Ct App 9th Cir, (1985).

6

VIII. Statement of the Case
UC is a normal child who was removed from Parkside Elementary School, Solon, Ohio
(regular education school), on 04/30/2018 and placed in Re-Education Elementary School,
Bedford, Ohio (special education for disability), despite an active due process request with
the Ohio Department of Education (ODE) filed on 04/23/2018. by his father, Okwudili
Chukwuani, challenging UC’s identification as disabled under IDEA. His father had filed a
motion, for temporary restraining order with the domestic relations court, on 03/27/20183. to
prevent evaluating UC under abnormal circumstances. However, the court never heard the
motion and it became moot, when the evaluation was completed on 04/23/2018.
His father was then denied his parental right for education decision by the same domestic
relation court through an ex parte motion (without due process) on 05/18/20184 The school
district then filed a motion to dismiss the ODE due process, on 05/21/2018. but were not
successful5. However, the ODE review officer, who was under pressure from the powerful
school district, decided on the due process without considering all the evidence, leading to a
denial of the due process request allegedly because of incomplete evidence, on 01/18/2019.
Hence, UC’s father filed a complaint for administrative review with the Federal District
Court, in March 2019, which was denied because of lack of standing as a parent, based on the
05/18/2018 domestic relations court order. The US 6th Circuit Court affirmed the district
3 Exhjbjt C1-5: Emergency motion for temporary restraining order, filed by petitioner on 03/27/2018.
^th^f D1-2. Domestic relations ex parte court order of 05/18/2018, denying father education decision
5 Exhibit E1-2: Order by the Ohio Department of Education (ODE) Impartial Hearing Officer, May 2018.

7

court’s decision, thereby preventing the administrative review of the procedural and “stay put”
violations.
In Honig v. Doe. 484 U.S. 305 (1988), this Court addressed the IDEA’S “stay put” provision,
explaining that in enacting “stay put”, Congress intended “to strip schools of the unilateral
authority they had traditionally employed to exclude disabled students ...from school.” This
Court also noted that the IEP is the “centerpiece of the [IDEA’s] education delivery system”
and explained that “Congress repeatedly emphasized throughout the Act the importance and
indeed the necessity of parental participation in both the development of the IEP and any
subsequent assessments of its effectiveness”. Unfortunately, this procedure was not followed
in the IDEA identification of UC for Emotional Disturbance.

IDEA’S definition of Emotional Disturbance, in 34 U.S.C. § 300.8 (c) (4):
“iXL Emotional disturbance means a condition exhibiting one or more of the following
characteristics over a long period of time and to a marked degree that adversely affects a
child’s educational performance:
(A) An inability to learn that cannot be explained by intellectual, sensory, or health factors.
(B1 An inability to build or maintain satisfactory interpersonal relationships with peers and
teachers.
(Cl Inappropriate types of behavior or feelings under normal circumstances
(D) A general pervasive mood of unhappiness or depression.
(El A tendency to develop physical symptoms or fears associated with personal or school
problems.
fiil Emotional disturbance includes schizophrenia. The term does not apply to children who
are socially maladjusted, unless it is determined that they have an emotional disturbance
under paragraph (c)(4)(f) of this section.”

8

The history of how UC, a normal child, came to be identified as a disabled child with
Emotional Disturbance, without ensuring that his environmental circumstances were normal,
as recommended by 34 U.S.C. § 300.8 (c) (4) (C) - “under normal circumstances”
(emphasis is mine), is presented below:

Historical Background
UC was a 7-year-old black second grade student of Parkside Elementary School, Solon, Ohio, who
was identified to be gifted with creative ability, by a state-wide test conducted on October 20176 but
did not receive any Written Education Plan (WEP) until February 2018. The WEP was not
implemented because his second-grade teacher was incorrectly suspecting him for disability based on
her interactions with him. UC had completed his first grade at the same school, in June 2017, without
any problems. He had also completed most of the 2nd grade curriculum in mathematics before he
started his second grade on August 22. 2017. On August 30, 2017, Mrs. Katie Trinetti, his home
classroom teacher, sent an email to his father reporting that, “Overall, his transition has been smooth,
(but) ...there has been a few instances in which UC demonstrated unexpected behaviors, for instance,
he refused to take his picture today (08/30/2017) for picture day. He was hiding under a table”1. The
teacher described those “unexpected behavior” as “new behavior ^, since they were not present when
she first met him and he was reported to have transitioned smoothly9; besides they were not present in
his first grade10 in the same school and they were not present at home or elsewhere, at that time.

6 Exhibit F1-4: State of Ohio Gifted Identification Result and Written Education Plan
7 Exhibit G: Mrs. Katie Trinetti’s email on 08/30/2017, paragraphs 1, 2 and 3.
8 Exhibit G: Mrs. Katie Trinetti's email on 08/30/2017, paragraph 3, lines 5-6
9 Exhibit G: Mrs. Katie Trinetti’s email on 08/30/2017, paragraph 1, lines 1-3
10 There was no report of any problems in the entire first grade (2016-2017).

9

Initially it was not easy to have an insight into what was happening in UC’s classroom. However,
later in the year, as the teacher’s reports continued to get worse, his father conducted a retrospective
review of the emails from the teacher, which revealed that the “new behavior” was due to some
environmental triggers, illustrated in the email of 09/05/2017n: which showed that the teacher’s
disciplinary approach consisted of segregating the student from his peers, without nrnvidinp- him
guidance through empathy and understanding, which made the student feel less important than his
peers, thereby prompting him to exhibit some attention-seeking behaviors, described bv the teacher as
“hiding” behavior12. Mrs. Trinetti’s disciplinary approach was not helpful in integrating the 7-yearold in his new classroom, because it made him feel isolated and segregated. Unfortunately, the
persistent use of that approach by the teacher, which was also depicted in her email of 11/09/201713 that described a change in UC’s sitting position in class, that removed him from his friends, making
the 7-year-old to feel less integrated and to be exhibiting some attention seeking behavior which were
neither present in his first grade, nor at home, nor on his first davs in school in Mrs. Trinetti’s
classroom in August 2017.14 His father observed that the “few instances of unexpected behavior”15
originally reported by Mrs. Trinetti on 08/30/2017, has assumed dominance and has continued to get
worse — there was more focus on generating reports than helping UC. His father was curious to find
out what was happening.

UC s father noticed that the school had developed a behavior chart, which was focused on
cataloguing the student’s behavior, in order to label him, rather than stopping the behavior by
addressing the cause of the behavior. Hence, on December 5. 201716. UC’s father requested the
school to move him to another home classroom teacher, but the school did not grant that request. The
school preferred to keep him in the same classroom, under the same teacher, while recording his
11 Exhibit H: Mrs. Katie Trinetti’s email on 09/05/2017
12 Exhibit G: Mrs. Katie Trinetti’s email on 08/30/2027, paragraph 3, line 4.
13 Exhibit I: Mrs. Katie Trinetti's email on 11/09/2017
14 Exhibit G: Mrs. Katie Trinetti’s email on 08/30/2027, paragraph 3, line 4.
15 Exhibit G: Mrs. Katie Trinetti’s email on 08/30/2017
16 Exhibit J1-2: UC’s father’s email on 12/05/2017, paragraph 1, line 1

10

behaviors with the intention of classifying him as disabled and removing him from his home school
district, Solon, Ohio. UC, who was uncomfortable with his home classroom teacher and the
environment, was often escalated by the uncomfortable environment, but the school used the
opportunity to be recording his responses to the abnormal environment rather than controlling the
environmental problem - this explains the high number of reported incidents. His father opposed
this approach, indicating that it was better to address the cause of the 7-year-old student’s problems
and stop the behaviors rather than to be enumerating the behaviors to label him. His father’s position
was supported by a positive report by another teacher in the same school, on January 18. 201817.
However, his father was unsuccessful in stopping the abnormal process, because the school obtained
UC’s mother’s unilateral consent, contrary to the parents’ shared parenting plan18.

UC’s parents were legally separated in March 2013. when he was 2 years old, based on an action
initiated by his mother in September 2011. Both parents are physicians and had agreed at pre-trial to
a 50/50 shared parenting plan with equal decision-making authority and with commitment to educate
all their children at the Solon School District. Both parents had also agreed that major decisions in
education and health requires the consent of both parents19. However, his mother wanted to take
advantage of UC’s situation and the disagreement between the district and his father, to become the
sole custodian parent in order to claim all the tax relief and child support. Whereas both parents as
physicians, could afford to opt out of the public-school system and place UC in a private school or
even home schooling, since he was doing well at home, the mother decided to take advantage of the
situation in school, to seek for full custody of the child with the support from the school district.

17 Exhibit K: Mr. Ryan Conner’s email on 01/18/2018 - shows he is capable of doing well in regular
environment, under normal circumstances.
18 Exhibit L1-4: Separation Agreement and Shared Parenting Plan
19 Exhibit L2: Shared Parenting Plan of March 15, 2013.

11

Hence, on 02/Q1/2Q1820. his mother initiated a motion at the domestic relations court, seeking for full
custody of the student and child support; She also unilaterally consented to evaluation for disability
that will eventually lead to his incorrect identification as disabled. On 03/27/201821. UC’s father, who
was convinced that the environmental triggers to UC’s behavior needed to be excluded before
proceeding to an IDEA identification of Emotional Disturbance, initiated an emergency motion to
restrain UC’s mother and the school from proceeding with such an identification. He was convinced
that the procedure adopted by the school will rather lead to the fulfilment of a prophecy than
an impartial identification. Unfortunately, the domestic relations court did not schedule the
emergency motion for hearing, until it became moot, after the evaluation was completed by the
school district on 04/23/2018. incorrectly identifying UC as disabled with Emotional Disturbance.
UC’s father initiated an administrative due process request with the Ohio Department of Education to
address the incorrect identification, on 04/23/2018. On 04/24/2018. the domestic relations court
declared the motion for emergency restraining order (filed by father on 03/27/20181 as moot and
granted the parents’ divorce on the same day, based on irreconcilable differences, while adopting the
parents’ shared parenting agreement of 03/15/201322.
On 04/30/2018, contrary to the shared parenting plan and “stay put” provision, UC was
transferred by his school out of the Solon School District to a school meant exclusively for
disabled children in Bedford, Ohio, by the unilateral consent of the mother. This transfer was a
“stay put” violation because it happened despite a pending administrative due process request,
initiated by UC’s father with the Ohio Department of Education, on 04/23/2018. When father
objected to the transfer through an email to the school district on 05/14/201823. mother colluded with
the school district to file an ex parte motion on 05/16/2018. with the domestic relations court, which

20 Exhibit M: Domestic relation court docket - showing the filing of the child custody motion by UC’s mother on
02/01/2018, plaintiff in the domestic relations case DR-11-338367.
21 Exhibit C: Emergency motion for temporary restraining order - prevent evaluating UC under an abnormal
circumstance.
22 Exhibit L1-4: Copy of the Shared Parenting Plan
23 Exhibit N1-23: Email to the Solon School District to ensure stay put and appropriate public education

12

was granted by the court on 05/18/201824. denying father’s parental right to decide for UC’s
education, without any hearing, which was unconstitutional, because due process was not
followed.
On 05/23/2018. UC’s father initiated a motion to vacate25 the ex-parte order, but it was denied on
06/08/2018. On 06/11/2018. UC’s father initiated a motion to reconsider26 the denied motion to
vacate, but the domestic relations court Judge Goldberg, who made the contested ex parte order of
05/18/2018 and who had denied the motion to vacate the same order on 06/08/2018. assigned the
motion for reconsideration of an order she made, to her sub-ordinate magistrate, who reports to her.
Father’s attorney did not prepare for that hearing, because the outcome was already known before the
hearing, but he did not notify UC’s Father, until the dav of the hearing, so UC’s Father dis-engaged
with the attorney, on the day of the hearing. 07/27/2018. UC’s mother was supported by the school
district, who came with the school district attorney and school representatives at the hearing. On
.08/21/2018, the magistrate denied the motion for reconsideration of the motion to vacate the ex parte
order (made by her supervising Judge Goldberg on 05/18/20181 On 09/18/2018. Judge Goldberg
recused herself from the case. On 09/20/2018. all the judges of the domestic relations court recused
themselves from the case. UC’s father filed an Original Action, Case # 2018-1347. with the Supreme
Court of Ohio, on 09/24/2018. to Prohibit the non-appealable orders, made by the recused domestic
relations Judge. On 10/12/2018. the Supreme Court of Ohio, appointed a retired visiting Judge David
Stucki, to conclude the case. On 12/19/2018. the visiting Judge David Stucki, called the Supreme
Court of Ohio and the court disposed the original action on that day; He then adopted the magistrate’s
decision to deny the motion for reconsideration of the motion to vacate the ex parte order of
05/18/2018.
UC has continued to be deconditioned at the special education school in Bedford, Ohio, which is
meant exclusively for disabled children, while his peers and older sibs are in the Solon school district,

24 Exhibit D1-2: Ex parte Order granting mother education decision making for UC
25 Exhibit 01-6: Motion to vacate ex-parte order
26 Exhibit P1-4: Motion to reconsider the denied motion to vacate the ex parte order of 05/18/2018

13

benefitting from regular education. His father has continued to notice increasing lack of interest in
academic work, especially lack of independent effort in learning, which was not present when he was
in regular education. It was impossible to obtain a comparable Independent Educational Evaluation
(IEE) compared to the IEP, because the “stay put” violation, which changed the school
settings/environment during an active due process - more so his father was unconstitutionally denied
education decision making capacity. On 12/06/2019. UC’s father filed the 4th affidavit of
disqualification of Judge David Stucki27, which was denied by the Supreme Court of Ohio on
12/17/2019.
UC’s father, was informed by his attorneys (4 different attorneys) that the court will decide
whatever they want to decide regardless of the merits of the case - this corresponds with the trend
demonstrated above, wherein due judicial process was not considered in the denial of UC father’s
parental right. Hence, it has been difficult for UC’s father to engage an attorney who will prosecute
the case for him - this explains why he is a pro se.

27 Exhibit Q1-3: Docket entry of the 4th Affidavit of Disqualification of Judge David Stucki

14

IX. REASONS FOR GRANTING THE WRIT
To avoid erroneous identification of disability under the IDEA by preventing
unconstitutional denial of parental rights and jurisdiction for the review of any
procedural violations alleged by a parent in a Federal Court.
Father’s attempt to regain his constitutional parental rights and standing to ensure that his son
receives appropriate public education led to this request for a writ of certiorari from the Supreme
Court of the United States of America. It represents an effort by a father to participate in the decision­
making of his son’s education and his right to ensure that his son is not denied the opportunity to
optimize the development of his talents for the service of this country.

In Brown v. Board of Education. 347 U.S. 483 (1954), this Court determined that, "in thefield of
public education the doctrine of ‘separate but equal’ has no place and that ‘separate educational
facilities are inherently unequal”. In this case, U.C. was removed from his regular educational
environment and transferred to a city different from where his parents live, and was placed in a
school with a lowered level of discipline, while his father who protested against it was stripped of his
parental rights to have a voice in his education. U.C. has been undergoing progressive decline in his
interest in educational development since this transfer.

In Honig v. Doe. 484 U.S. 305 (1988), this Court addressed the IDEA’s "stay put”provision,
explaining that in enacting "stay put", Congress intended “to strip schools of the unilateral authority
they had traditionally employed to exclude disabled students ...from school. ” This court also noted
that the IEP is the "centerpiece of the [IDEA’s] education delivery system ” and explained that
"Congress repeatedly emphasized throughout the Act the importance and indeed the necessity of
parental participation in both the development of the IEP and any subsequent assessments of its
effectiveness. ” In this case, UC’s father was concerned that proper procedure was not followed before
deciding to proceed with an evaluation for the IEP; He repeatedly stated that classifying his son as
disabled will not be helpful for his development because he is not disabled. Although, he filed a due
15

process request with ODE before the IEP was completed, while the student was still in the regular
school, the school district, ignored the due process/stay put provision and transferred him out of the
regular school to a special education environment for disabled children, without the consent of his
father, Okwudili Chukwuani - hence, they took advantage of the fact that UC’s parents were
separated to evade the need for full parental participation, as required by congress and as explained
by this court. There is a difference between the best interest of the student and the best interest
of the school, in this case one parent sided with the student, while the other parent took sides
with the school. It is a fact that whenever two parents must agree for an action to occur, if there is a
disagreement between the two parents, then that action must not be allowed to occur. Father did not
consent for the evaluation, but the school district colluded with mother to strip the father of his
parental right to make educational decision for U.C., through an ex-parte motion on 05/18/2018.
Father’s denial of parental right was unconstitutional and cannot be a valid basis for the denial of
jurisdiction by the US District Court and the 6th Circuit Court.

In Jacob Winkelman v. Parma City School District. 550 U.S. 516 (2007), this Court determined
that “IDEA grants parents independent, enforceable rights, which are not limited to
procedural and reimbursement-related matters but encompass the entitlement to a free
appropriate public education for their child.”In this case, UC’s father’s rights to ensure that his
son gets appropriate public education, by challenging the process that led to his identification, at the
US District Court, was denied when the U.S. 6th Circuit Court affirmed the District Court’s denial of
jurisdiction, because his father is a pro se litigant. This denial of jurisdiction on the basis of pro se
litigant is not consistent with the above determination of the U.S. Supreme Court, under IDEA.

In Oberti v. Board of Education. 995 F.2d 1204 (3rd Cir. 1993), the 3rd Circuit Court determined
that, “disabled children should be mainstreamed to the maximum extent appropriate and their
removal from the regular education environment should occur only when the nature or severity of the
16

disability is such that education in regular classes with the use of supplementary aids and services
cannot be achieved satisfactorily.” In this case, UC was removed completely from the regular schools
in his home school district, Solon, Ohio and transferred to another city, Bedford, Ohio, despite
evidence by his father and a teacher28 in the school that he was not disabled and could do well in
regular school under appropriate environment. The fact that UC’s father was denied his parental
rights to make educational decisions for UC, because he challenged the transfer of his son to a school
exclusively meant for disabled children, is a serious infringement of his constitutional rights
involving 1st, 5th, 9* and 14th Amendments as shown below:

In Santosky v. Kramer, 102 S Ct 1388; 455 US 745, (1982), this Court determined that
The fundamental liberty interest of natural parents in the care, custody, and management of
their child is protected by the Fourteenth Amendment, and does not evaporate simply
because they have not been model parents or have lost temporary custody of their child to
the State. A parental rights termination proceeding interferes with that fundamental liberty
interest. When the State moves to destroy weakened familial bonds, it must provide the
parents with fundamentally fair procedures. ” In this case, Okwudili Chukwuani was denied his
parental rights to make educational decisions involving his son, UC, by the domestic relations
court on 05/18/2018, without any fair due process. It is unconstitutional and cannot be used by
any superior court to deny him jurisdiction. The Ohio State Department of Education (ODE)
review officer recognized this situation in making a decision to proceed with the due process
after the ex
District Court, failed to recognize this situation - whereas the ODE witnessed the “stay put”
violation when it happened on 04/30/2018, neither the district judge nor the justices of the 6th
circuit witnessed it, but they were informed that it preceded the denial of parental rights. If the

28 Exhibit K: Email by Mr. Conner, January 2018.
17

decision of the 6th Circuit Court of Appeal is to be upheld, then the entire ODE review is null and
void for consistency: besides a parent will have his constitutional rights denied.

In Doe v. Irwin. 44 F Supp 1247; U.S. D.C. of Michigan, (1985), a Federal District Court found
that, “The rights ofparents to the care, custody and nurture of their children is of such
character that it cannot be denied without violating those fundamental principles of liberty
and justice which lie at the base of all our civil and political institutions, and such right is a
fundamental right protected by this amendment (First) and Amendments 5, 9, and 14.” A
similar consideration, by the U.S. District Court of North East, Ohio, could have prevented the
denial of jurisdiction by this court because the denial of the parental rights was unconstitutional.

In Stanley v. Illinois. 405 US 645, 651; 92 S Ct 1208, (1972), this Court determined that
“Under the Due Process Clause of the Fourteenth Amendment petitioner was entitled to a
hearing on his fitness as a parent before his children were taken from him”. This Court’s
decision was in reference to an unmarried father, who had no interaction with his children until
their mother died. In this case, we have a father, who had active participation in the care of his
son since his conception, but his parental rights were denied without due process, through an ex
parte motion, without any valid allegation of unfitness as a parent. He was denied education
decision making authority, because he protested against a “stay put” violation and procedural
violations in the IDEA identification of his son. He was denied jurisdiction by the 6th Circuit
Court, on the same basis, to prevent a review of the procedural violations that he complained
about - this represents a vicious circle of obstruction of justice, wherein a State Court’s
procedurally defective judgement, which is unconstitutional, becomes a ground to deny standing
in appealing an IDEA procedural violation in a Federal Court.

In Kelson v. Springfield. 767 F 2d 651; US Ct App 9th Cir, (1985), The U.S. Court of Appeals
for the 9th Circuit (California) held that, “the parent-child relationship is a constitutionally
18

protected liberty interest. (See; Declaration ofIndependence -life, liberty and the pursuit of
happiness and the 14th Amendment of the United States Constitution) — No state can deprive
any person of life, liberty or property without due process of law nor deny any person the
equal protection of the laws”. In this case. UC’s father was denied due process and equal
protection of the laws, in the denial of his parental rights and his jurisdiction to review a
complaint about procedural violations in the IDEA identification of his son for Emotional
Disturbance and the violation of the “stay put” provision.

Finally, in Santoskv v. Kramer. 455 U.S. 745,102 S.Ct. 1388, 71 L.Ed.2d 599 (1982), this
Court determined that “the nature of the process due in parental rights termination
proceedings turns on a balancing of three factors: the private interests affected by the
proceedings; the risk of error created by the State's chosen procedure; and the
countervailing governmental interest supporting use of the challenged procedure.” The
strength and integrity of any system depends on the effectiveness of the checks and
balances. The IDEA has an in-built checks and balances, which is through a due process
request by anyone, that helps to maintain its integrity. Unfortunately, concerted efforts
were made to prevent proper due process in this case - ranging from the denial of
parental rights to the denial of jurisdiction, none of which were present before the
due process request was initiated, on 04/23/2018. The US Congress never intended that
IDEA will be used to de-condition any normal student for other private benefits. UC’s father
is not asking for the education of his son to be funded bv the government, he is
merely asking for his son to be allowed to have exposure with other normal children
in a regular education environment, in order to optimize his potentials to be useful to
this great country. A situation where a normal child is excluded from regular educational
environment under the guise of special education is not the intention of the US Congress
and I humbly request this Court to allow this situation to be comprehensively reviewed.

19

X.

CONCLUSION

Based on the above stated reasons, Dr. Okwudili Chukwuani, respectfully requests this Court to
issue a writ of certiorari to review the judgement of the US 6th Circuit Court of Appeals.
Respectfully submitted on this 9th day of August, 2020.
'*cSt

Okwudili Francis Chukwuani, MD
Pro Se /Parent/Petitioner
7309 Winchester Drive, Solon, Ohio 4439 Tel.: (713) 574-0043
Fax: (713) 357-9405; E-Mail: okwv60@vahoo.com

20

